NO.
3fn tljc

Supreme Court of tlje ®ntteb States!
Abdul Mohammed,
Petitioner,
v.
Judge Jorge Alonso et.al,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.com

November 5, 2020

10

Case: 20-2310

Document: 11

Filed: 10/02/2020

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
October 2, 2020
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 20-2310

v.

JORGE L. ALONSO, District Judge, et al.,
Defendants - Appellees
Originating Case Information:
District Court No: l:20-cv-03481
Northern District of Illinois, Eastern Division
District Judge Manish S. Shah
The following is before the Court: MOTION TO PROCEED ON THE INSTANT APPEAL IN
FORMA PAUPERIS, filed on September 4, 2020, by the pro se appellant.
This court has carefully reviewed the final order of the district court, the record on appeal, and
appellant's motion to proceed in forma pauperis. Based on this review, the court has
determined that any issues which could be raised are insubstantial and that further briefing
would not be helpful to the court's consideration of the issues. See Taylor v. City of New Albany,
979 F.2d 87 (7th Cir. 1992); Mather v. Village of Mundelein, 869 F.2d 356, 357 (7th Cir. 1989) (per
curiam) (court can decide case on motions papers and record where briefing would be not
assist the court and no member of the panel desires briefing or argument). The district court
correctly dismissed Mohammed's complaint because each of the defendants was protected by
judicial immunity.
Accordingly, IT IS ORDERED that the motion to proceed in forma pauperis is DENIED, and
the final order of the district court is summarily AFFIRMED.

Case: 20-2310

Document: 11

No. 20-2310

Filed: 10/02/2020

Pages: 2

Page 2

Appellant is warned that future frivolous appeals may lead to sanctions, including an order
withdrawing his privilege of litigating any case in forma pauperis, in the district court or the
court of appeals, until he had paid, in full, all outstanding fees and costs for all of his lawsuits.
See In re City of Chicago, 500 F.3d 582, 583 (7th Cir. 2007); Campbell v. Clarke, 481 F.3d 967 (7th
Cir. 2007).

form name: c7_Order_BTC(form ID: 178)

Case 1 20-cv QJ'"81 Document « 7 Filed 00/29/20 Page 1 of 2 PagefD •“ ?3

United States District Court
For The Northern District Of f j.linois
Eastern Division
.U-IJl !, MiJUuMMU),

Plai.ai.iii.

Su. v.-; cv ; ;m

v.
♦Judge Manish H. Shah
• H u* ,k -ionr;! Ai.fi\so. it al..
DciVndant',.
Order
Plaintiffs arplantton *u pruned in forma pauperis (6] is denied The complaint
D <11,1-1-ad pursuant lo 28 U.S.C. $ l915fet(2i<B). Enter judgment and terminate
CiV'd l.„..-V.

STATF.ME.vr
P-AintiPF submitted a complaint naming judge.- of the United States District
Court for t be Northern District of Til mots and the United States Court oi Appeals for
tiic Seventh Circuit **> defendants. Because plaintiff has applied to proceed m torma
pauperis. the court is required to renew the complaint and dismiss it li the action i»
rnvolaua or malicious, fails to state a claim on which relief may he granted, or seeks
monetary relief against a defendant who is immune from, such relid. In L..

•V'

§ 1915(e)(2)(B).
The complaint accuses the district judges of improper rulings and bias^in
Mohammed v. Dupage Legal Assistance Foundation, et al. No. 18 CV 2*08 iX.D. I , id;
Mohammed v. Anderson, et al. No. 18 CV 8393 (N D. Ill); and Mohammed t. .State of
Illinois, No. 20 CV 50133 (N.D. Ill.). The complaint nv>rt allege.- that the judges on
the court of appeals rubber-stamped a recommendation from staff attorneys when
iasuim* the decision in plaintiffs appeal in Mohammed c DuPagc Legal Assistance
Foundation, et al., No. 19-1207 (7th Cir Oct 22. 2010) Plaintiff seeks damages along
with injunctive relief in the form of judicml disquniificrrioo and vacatur u! the
judgments in his dismissed lawsuits.
There are a number of problems with ploinulfs complaint, but at the end ot
the day, it attempts to obtain money from judges for the w ay they handled cases.
They are immune from such suits. See Miretes u. Waco, 502 L tv 9 (1991). .The
complaint alleges that the judges acted without jurisdiction, and therefore without
judicial immunity, but this is incorrect. Even if the judges lacked subject-matter
jurisdiction, they were issuing rulings in pending cases in their cap ant;, as judges.

App 002

.

12

■'

Case: l:2Q-cv-0348i Document #: 7 Fifed: 06/29/20 Page 2 of 2 PagelD #:80
They are immune from lawsuits challenging their rulings. The requested injunctive
relief-disqualification of the judges and reversal of their rulings—does not save the
complaint from dismissal because that effectively seeks to vacate final judgments and
pursue arguments that plaintiff could have pursued on direct appeal or through
Federal Rule of Civil Procedure 60(b), A collateral attack of this kind on civil
judgments is not permitted. See Johnson v. UMG Recordings, Inc., 663 Fed, App’x
478,479 (7th Cir, 2016). And plaintiff can still pursue arguments within his pending
case,.NOi. 20 CV 50133 (N.O. Ill.), and if necessary, in any appeal from that case. A
separate suit asking one district court judge to intervene in a case pending before
another district court judge is not appropriate.
Plaintiff’s complaint is dismissed with prejudice because amendment would be
futile—the judges are immune from these types of claims and plaintiff cannot pursue
the injunctive relief he seeks in a separate suit. Plaintiffs application to proceed in
forma pauperis is denied. Enter judgment and terminate civil case.
ENTEK:
Date: June 29, 2020

App 003

Manish S. Shah
U.S. District Judge

13

